<html>
<title> - THE UNITED STATES CAPITOL POLICE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                    THE UNITED STATES CAPITOL POLICE

=======================================================================

                                HEARING

                               before the
                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    3ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2015

                               __________

      Printed for the use of the Committee on House Administration


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                     Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
                                    ______
   
                            U.S. GOVERNMENT PUBLISHING OFFICE 
   
  95-310                         WASHINGTON : 2015 
  -----------------------------------------------------------------------
     For sale by the Superintendent of Documents, U.S. Government Publishing 
     Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
            DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                             Washington, DC 20402-0001
                          
   
   
   
   
   
   
   
   
   
   
   
                   COMMITTEE ON HOUSE ADMINISTRATION

              CANDICE S. MILLER, Michigan, 
                         Chairman

ROBERT A. BRADY, Pennsylvania        GREGG HARPER, Mississippi
  Ranking Minority Member            RICHARD NUGENT, Florida
ZOE LOFGREN, California              RODNEY DAVIS, Illinois
JUAN VARGAS, California              BARBARA COMSTOCK, Virginia
                                     MARK WALKER, North Carolina

                           Professional Staff

                      Sean Moran, Staff Director
                    Kyle Anderson, Minority Staff 
                                  Director

































 
                      UNITED STATES CAPITOL POLICE

                              ----------                              


                        WEDNESDAY, MAY 20, 2015

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 2:10 p.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
[chairman of the Committee] presiding.
    Present: Representatives Miller, Harper, Nugent, Davis, 
Walker, Brady, Lofgren, and Vargas.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Bob Sensenbrenner, Deputy General 
Counsel; John L. Dickhaus, Legislative Clerk; Erin Sayago 
McCracken, Communications Director; Reynold Schweikhardt, 
Director of Technology Policy; Brad Walvort, Professional 
Staff; Kyle Anderson, Minority Staff Director; Matt Pinkus, 
Minority Senior Policy Advisor; Khalil Abboud, Minority Deputy 
Staff Director/Director of Legislative Operations; Mike 
Harrison, Minority Chief Counsel; and Eddie Flaherty, Minority 
Chief Clerk.
    The Chairman. Even though the House has just completed a 
vote and we are expecting maybe a couple of other members here, 
I think, in the interest of time, I will start the hearing.
    I would call to order the Committee on House Administration 
for today's hearing on the United States Capitol Police. The 
hearing record will remain open for 5 legislative days so that 
members may submit any materials that they wish to be included.
    A quorum is present, so we might proceed.
    I am just going to tell you before we start--I just 
mentioned this to the ranking member as we were walking down 
the hall here together after votes--he may have had one of his 
finest moments just a moment ago because he spoke for the 
entire Congress and the entire country and perhaps the entire 
world so eloquently about what happened with the train crash in 
your area and how well the first responders, how quickly they 
responded. It is interesting. Here we are going to talk about 
the Capitol Police, but it was a national tragedy. I just 
mentioned to him, one of our State senators in Michigan, her 
daughter, 39-years-old, was one of the victims that perished. 
So it went around the country.
    But you spoke so very, very well, and I just want to tell 
you how much I appreciated everything that you said there very, 
very much.
    Mr. Brady. Thank you.
    Thank you, Madam Chair.
    The Chairman. I would also like to take a moment to 
introduce and to welcome, before we start our hearing here, our 
newest member to the House Administration Committee, that is 
Mark Walker who represents the Sixth District in North 
Carolina. He is in his first term here in Congress. He came 
very highly recommended to us, that he had an interest in this 
Committee, and we are delighted that he is here.
    His background is, I think, going to be very much an asset 
to our Committee. He previously served his community as a 
pastor, actually, in Greensboro, North Carolina, worked in a 
small business in the private sector. Both of those attributes 
are going to be very much needed here, so we certainly 
appreciate that. We are looking forward to putting him to work 
here and also looking forward to his input on our Committee.
    We are meeting here today to discuss the United States 
Capitol Police. This law enforcement agency is unique really, 
unique maybe in the world, certainly, probably not what most 
would consider a typical community police force, and that is 
because the mission of the Capitol Police is to protect and to 
serve the United States Capitol, which, of course, is the 
citadel of democracy of the world.
    There is no denying the fact that this building and this 
institution are very dramatic symbols of our free society, 
which is based on self-government. This also makes the Capitol 
campus and this institution a target of those who hate our 
freedoms and hate our values here in America. In fact, some say 
that because of this, perhaps we need even greater restrictions 
on access to the Capitol campus here. Obviously, that would be 
totally counter to what this Nation stands for.
    One of the many important rights secured on behalf of the 
American people and the First Amendment in our Constitution is 
the right to redress their grievances before their government. 
The American people must have access to those that they send to 
the Capitol to represent their interests, and they must also 
have access to the grounds of our Capitol Building to also 
exercise their constitutionally guaranteed right to peaceably 
assemble.
    Since Congress created the U.S. Capitol Police back in 
1828, they have worked very hard to fulfill this dual mission 
of safety and accessibility. Every Member of Congress, the 
staff of the Capitol here in the office buildings, and the 
American people as a whole understand that this is no small 
task that we have missioned them with.
    We commend and we have the utmost respect for the many men 
and women who uphold their sworn duty to act as protectors and 
defenders of the law day in and day out, 24/7. Each officer has 
come here willingly answering the call to serve and to protect. 
The Capitol Police law enforcement agency is just not a few 
individuals; they are many who serve as one to meet their 
mission in protecting our complex.
    So we hold this hearing today as part of our Committee's 
jurisdiction to review the safety and the security of the 
Capitol and its facilities. The safety of each Member of 
Congress, all the staff, and most importantly of course, the 
security and the safety of the millions of Americans who visit 
each and every year is important.
    Our Committee works very closely with the Capitol Police on 
a daily basis to ensure that they have the tools, the 
authority, and the support that they need to keep our Capitol 
safe and secure for everyone. The security needs of the Capitol 
complex are always at the forefront of our minds, because we 
all understand the threats. There is a constant need to review 
security protocols; make certain those protocols are 
thoughtfully developed; and ensure that the protocols are 
reviewed, tested, and deployed against the threats.
    The importance of this process has not diminished over the 
years. In fact, new and verifiable threats have only increased, 
and we must work together to adapt. As with any law enforcement 
organization, the responsibility for meeting the mission begins 
and ends at the top. In this case, with the Chief of Police, 
Kim Dine. While our Committee meets on a regular basis to 
discuss the security status of our Capitol and all of its 
inhabitants with the Capitol Police leadership, we felt it was 
very timely to have a general oversight hearing to hear 
directly from the Chief of the Capitol Police about his force.
    Obviously, we all recognize, Chief, that there are very 
sensitive aspects about the operations and the capabilities of 
the Capitol Police that we can probably not discuss in an open 
forum, but it is important to note, I think, as well, that most 
often threats are discovered and they are investigated and they 
are resolved without them ever becoming public. And often they 
do that almost always really in cooperation with other 
agencies.
    Due to the inherent professionalism of the force, that is a 
type of flawless response that we have come to expect from the 
U.S. Capitol Police. But, certainly, as some of the recent 
events--the gyrocopter incident brings these threats to the 
forefront. Many have questioned how the gyrocopter was actually 
able to fly all the way to the front lawn of the Capitol.
    However, I will note this: Actually protecting the 
restricted airspace over Washington, D.C., is not the mission 
of the Capitol Police. That falls to other agencies. In fact, I 
can remember, I think it was during President Reagan's funeral 
when a former Governor of Kentucky, his State aircraft came 
into restricted airspace. A pilot error, but the Air Force 
actually scrambled their jets, I think, on that day.
    I do remember the Capitol Police doing their duty to 
evacuate the Capitol campus flawlessly. Again, in that 
instance, the job of the Capitol Police was not to so much 
eliminate the air threat in the restricted airspace but to 
protect those who work there or are visiting the Capitol 
campus.
    I would say this, I had a briefing after that, many of us 
did, and I told the Chief then that I thought the Capitol 
Police performed very well once the gyrocopter landed, almost 
flawlessly, really. However, I would also say that there were 
some aspects of the event, which I am going to be looking 
forward to hearing from the Chief on, which we would like to 
talk a bit about, about when did the Capitol Police know that 
the individual was heading for the Capitol; and if we had some 
heads up, how would that affect the response then; and how does 
it affect the response going forward.
    I would also like to note that in that incident and others, 
I have taken issue with the lack of communication. During that 
incident, actually the best source of information that I had 
and I think many Members had was watching cable TV, and 
actually looking at some of the different news channels. So I 
think the police work was very impressive, but the 
communications could be improved. That is an area that we want 
to have a bit of oversight on. Although, again, I have raised 
these concerns with the Chief, and it does appear to be that 
the communication protocols have already been improved.
    Also, there have been three separate incidents that perhaps 
normally you wouldn't talk about publicly, but they have been 
in all of media outlets so it is quite known, where officers 
have left their assigned firearms unattended. These are very 
serious breaches, I think, that alarm all of us, quite frankly. 
When you are in an open and public environment with literally 
millions of visitors each and every year, securing your weapon 
is of primary importance.
    So I understand, again, that these incidents are being 
investigated and, again, normally wouldn't be talked about 
openly. But certainly, at this point, I hope to hear a bit 
about how they are being handled, whether the Capitol Police 
has the training and the resources that it needs, and what 
steps are being taken to ensure that these kinds of serious 
incidents are not repeated.
    The purpose of the hearing is to examine the current 
operations and the responses taken by the Capitol Police, 
particularly those leadership decisions which have an effect on 
training, readiness, and on the overall morale of the force of 
the United States Capitol Police.
    I would say this, we certainly all understand that now is a 
particularly challenging time for law enforcement across the 
entire country--certainly not just here, but across the entire 
country. We are also very aware that the Capitol Police operate 
in sort of an asymmetrical environment. The purpose of this 
hearing is certainly not to second-guess every single action 
that has been taken in pursuit of security. However, our 
Committee does have the oversight responsibility for conducting 
a hearing such as this, and we intend to carry out our 
responsibilities.
    Of course, nearly all of the events that have occurred in 
the public view are met with textbook responses that display, 
again, the standard of conduct, the professionalism that 
Congress expects of its law enforcement agency and is demanded 
by the American people as well. We would ask the Chief to 
provide us as much information as possible in an open setting 
about these incidents, such as what was learned; training 
improvements; where the training proves successful; in the 
cases of the unintended firearms, what kinds of corrective 
actions has been taken, again, that you could discuss openly; 
and, lastly but likely most importantly, what your plan is for 
the department to move forward. I think we don't want to be 
spending our time looking in the rearview mirror. We want to 
look forward as much as possible, always.
    One of the questions--and I mentioned this to the Chief 
before we started--that I am going to want to bring up and 
perhaps more of a discussion amongst even the members here is 
exploring how the chain of command is structured, because right 
now the Chief of Police reports to the Capitol Police Board, 
which is made up of the Sergeant at Arms in the House, the 
Sergeant at Arms in the Senate, and the Architect of the 
Capitol. This was a police board that was comprised back in the 
1800s, and it just seems like it would be a timely thing for 
us, perhaps, to discuss whether or not this reporting structure 
complicates performing the duties that we have an expectation 
of the Capitol Police and its Chief and if it is the best 
management structure.
    Then, finally, I would ask the Chief to explain again the 
leadership steps that he has taken and is taking to guide the 
law enforcement agency forward.
    So I am very hopeful that the result of this hearing will 
be that we all gain a better understanding of the challenges 
faced by the Capitol Police; areas where some of the changes or 
improvements can be made; and, finally, how this Committee can 
assist, which is what we really want to do, how we can assist 
the United States Capitol Police in performing their mission 
because we all share the common goal of protecting the United 
States Capitol, the entire campus here, as I say, not just the 
Members or the staff but, most importantly, the American 
people, the millions of American people that visit each and 
every day.
    So I certainly thank the Chief for his appearance before 
our Committee today.
    I would now like to recognize my colleague, the gentleman 
from Pennsylvania, Mr. Brady.
    Mr. Brady. Thank you, Madam Chair.
    I join my friend, Chairman Miller, in welcoming the Chief 
to this hearing. We wish we saw you more often although under 
different circumstances.
    The congressional community and the American public need to 
be sure that they are safe in the United States Capitol and the 
surrounding areas. I believe that strong oversight and policy 
direction of vital elements of building and, unfortunately, in 
some instances, rebuilding that trust.
    The Committee on House Administration, the other 
legislative and oversight committees of the House, and Senate 
need to be sure that we are not an afterthought in the process 
of managing this department. If something potentially 
embarrassing happens which reflects on the Capitol Police, 
risks the public safety, or is likely to become publicly known, 
run--don't walk--to this committee. We don't want to find out 
from local Hill newspapers, tweets from journalists, or through 
the rumor mill.
    Recent incidents with officers losing their weapons, the 
gyrocopter landing on the west front lawn, the tragic murders 
of the Navy Yard, it is my understanding that several of these 
issues are still under investigation and subject to the legal 
process. But none of that reduces the committee's obligation to 
know the facts and the department's obligation to be 
forthcoming.
    I have been and continue to be unwavering in my support of 
the Capitol Police. Chairman Miller and I have many 
conversations on the USCP anniversary. Every issue we are in 
complete agreement. I think I can safely say that we both want 
to do everything and anything possible to ensure that you and 
the force is successful.
    On a daily business, rank-and-file officers may be called 
upon to put their lives on the line to protect visitors, 
members, and staff. As the son of a police officer, I am 
intimately aware of that tremendous burden and commitment it 
requires. But, quite frankly, I have been deeply troubled by 
several recent occurrences that have forced me to question the 
leadership of the force.
    I look forward to your testimony, and I look forward to 
learning how you plan to continue to strive to be the leader 
that they deserve.
    Thank you, Madam Chair.
    The Chairman. Thank the gentleman.
    Are there any other members that wish to be recognized for 
an opening statement?
    Chair recognizes Mr. Harper.
    Mr. Harper. Thank you, Chairman Miller.
    And thank you, Chief Dine, for being here today and 
offering testimony to the committee.
    There have been media reports on the rarity of Capitol 
Police Chief appearing before the committee that is, in fact, 
charged with oversight of the force. I don't think that it 
should be unusual and hope that this may be the start of a new 
tradition of frequent appearances by you and your successors.
    I appreciate your service as well as that of each and every 
one of the officers under your command. And I don't consider it 
my job to criticize you or others in your command structure 
just when things go wrong. I think this committee can and 
should be as much a part of your support network as the Capitol 
Police are a supporting agency of the U.S. Congress.
    However, that requires open and honest communication 
between us. And while I recognize the often sensitive nature of 
your work in terms of security, I also recognize that we are 
both public servants and have responsibility to submit 
ourselves to public scrutiny from time to time. Again, I 
appreciate your appearance today, and I look forward to hearing 
your testimony.
    And I yield back.
    The Chairman. Thank the gentleman.
    Other members?
    Mr. Vargas.
    Mr. Vargas. I, too, want to thank you, Madam Chair, for 
having this hearing.
    I also want to thank the Chief. I sat on the San Diego City 
Council. We had responsibility for the city police there. I was 
also in the State Assembly and the State Senate. And I have to 
say, the professionalism here has been fantastic.
    I, in particular, want to call out Sergeant Stephen Merle. 
We have had a couple issues with people that have mobility 
issues in my district that have come to the Capitol, and he has 
been fantastic. One lady in particular asked me if I would pass 
along her thanks to him. Again, his name is Sergeant Stephen 
Merle.
    And, again, I thank you for this hearing. And, again, my 
experiences have been very, very positive, and I appreciate it 
again. Thank you.
    The Chairman. Thank the gentleman.
    Mr. Nugent from Florida.
    Mr. Nugent. Thank you, Madam Chair.
    And I appreciate, Ranking Member, your support of the 
Capitol Police and Chief Dine.
    Listen, after 38 years of being in law enforcement that I 
have experience in and being a chief administrator, I know it 
can be a thankless job from time to time. But, you know, the 
pressures do exist.
    And one of the things I think that this committee would 
like to see--or at least I would like to see--is more 
transparency with the agency and us. And it doesn't always have 
to be in a formal setting such as this. It can be on a one-on-
one setting with any one of us as this goes forward.
    Obviously, we have great concerns, with reference to what 
has been in the media as it relates to officers leaving their 
weapons in areas that they shouldn't, in the gyrocopter 
landing. I don't think we need to go through every issue at 
this point in my comments.
    But I will tell you that we need to have a better 
understanding of the Capitol Police. It is probably the most 
unique law enforcement agency in the Nation that I am aware of 
because your mission is really about protecting this campus and 
all of us but, as the chairman had mentioned, all the citizens 
that come here on a daily basis to view democracy in action.
    And yours is a job that not many people could do. And I 
will tell you, you are only as good as the folks that surround 
you and your upper administration. But also the men and women 
that daily put on those uniforms and the vest to protect us, 
without them, this doesn't happen and we don't have an open 
setting like this. And so I want to make sure that we are doing 
everything to support you but also support the men and women of 
this agency.
    And I think sometimes that gets lost, that there are 
actually people that kiss their husbands or wives goodbye in 
the morning and not knowing if they are going to come back 
tonight. And I want to make sure that we are doing everything 
in our power that they have a great working environment. I am 
sure you agree with that.
    So we want to hear what steps you are going to do to remedy 
some of the issues that have been brought up by members here 
today and that you are going to hear about later as we move 
forward. It is very important that we feel assured that--you 
are the chief executive officer; you are the Chief of Police--
that you have a good handle on it and what you are going to do 
to remedy it.
    You know, obviously, we talk to your folks on a regular 
basis. And we want to make sure that their morale is high and 
that they want to stay here because we have a big investment in 
them. And so I want to hear from you what exactly, what 
specific ideas you have to put in place to make sure that this 
elite force stays elite, has the training, and the backing of 
its administration as we move forward.
    And Madam Chair, I yield back. Thank you very much.
    The Chairman. Thank the gentleman.
    Other members?
    If not, let me formally introduce our one witness here 
today. Kim Dine is the eighth Chief of the United States 
Capitol Police and has served in this position since December 
of 2012. The Chief has had a distinguished career in law 
enforcement for the last 39 years. He began his career with the 
Metropolitan Police Department in Washington, D.C., where he 
was eventually appointed assistant chief of police for the 
department.
    In 2002, he became the chief of police of the Frederick, 
Maryland, police department and served there for 10 years. As 
Chief of the U.S. Capitol Police, Chief Dine is responsible for 
commanding a force of nearly 2,000 sworn-in civilian personnel, 
who are very dedicated to provide comprehensive law enforcement 
security and protective operation services to the U.S. 
Congress, Members, staff, and millions of annual visitors in 
the surrounding complex.
    So, with that, Chief, we certainly appreciate you joining 
us today, and we look forward to your comments. There is 
normally a 5-minute period, but you take what you need and go 
through it. Thank you.

 STATEMENT OF KIM DINE, CHIEF OF POLICE, UNITED STATES CAPITOL 
                             POLICE

    Chief Dine. Thank you, Chairman Miller.
    Good afternoon, everyone, and thank you for the opportunity 
to appear before the Committee on House Administration to 
discuss the leadership of the United States Capitol Police. I 
am joined here today by the Department's Chief of Operations, 
Assistant Chief Matthew Verderosa, and the Department's Chief 
Administrative Officer, Mr. Richard Braddock, as well as some 
members of my Executive Management Team.
    This afternoon, I would like to provide the Committee with 
a brief summary of my first 2\1/2\ years leading the USCP and 
lay out to you my short- and long-term vision in leadership 
priorities for the Department. First, however, I would like to 
thank the Committee for its sustained and unwavering support 
for the United States Capitol Police. I am truly grateful for 
the support of the Congress and that of the Capitol Police 
Board.
    I would also be remiss if I did not recognize the brave 
women and men of the United States Capitol Police. Each and 
every day they place themselves in harm's way to ensure that 
this great institution can carry out its critical role in 
legislating and providing one-third of the infrastructure for 
our great democracy. I firmly believe that the women and men of 
the USCP continually demonstrate professionalism, pride, and 
effectiveness in meeting the mission requirements for both 
routine operations and critical incident response and do so 
proficiently.
    In December 2012, I was appointed by the Capitol Police 
Board to serve as the Chief of Police for the United States 
Capitol Police. Within the first 2 months on the job, I had the 
pleasure of leading the Department during the 57th Inauguration 
of the President of the United States. Since then, I have also 
overseen numerous State of the Union activities, concerts, 
National Peace Officers' Memorial services, Joint Meetings of 
the U.S. Congress, visits from heads of State, dignitaries, and 
VIPs, CODELS, and demonstrations.
    I have also overseen unique situations during my tenure, 
such as the African Summit, which saw 50 heads of state visit 
the Capitol; ricin incidents in our mail facilities; 
operational activities on the Capitol Complex as a result of 
the Navy Yard shooting; the October 3, 2013, vehicular shooting 
incident on Capitol Hill; the Convert for Valor; the impacts of 
demonstrations resulting from the Ferguson, Missouri, police 
activity; two suicides on Capitol Grounds within the last 2 
years; and, most recently, the National Capital Region event 
with the gyrocopter.
    However, response operations have not been the only focus 
of my leadership. In February 2014, the Department fully 
implemented its new digitally encrypted radio system without 
issues or communications service interruptions. In 2014, the 
Department also successfully achieved reaccreditation from the 
Commission on Accreditation for Law Enforcement Agencies, 
CALEA, earning the gold standard in public safety 
accreditation.
    Further, we have continued our efforts to resolve 
recommendations provided by the United States Capitol Police 
Inspector General designed to improve our internal controls and 
management practices, including our controls over the inventory 
of weapons and ammunition.
    I unequivocally understand the concerns regarding the 
recent issues related to the mishandling of weapons by some of 
our officers. There are no excuses for these mistakes.
    The Department takes these incidents very seriously, and we 
will rely on our disciplinary process to provide the framework 
for accountability. USCP employees are held to a very high 
standard in terms of conduct and discipline. The USCP has a 
team of highly experienced, well-trained, professional 
investigators whose sole job function is to investigate 
internal conduct issues. This is done by conducting thorough, 
defendable, legally sufficient investigations into misconduct 
as well as other employee-related matters.
    The first offense for a mishandled weapon typically 
receives a 5- or more day suspension without pay. I am 
considering increasing the minimum penalty to up to a 30-day 
suspension, all the way to termination for a first offense, and 
potential termination for any subsequent offense.
    This is not offered in response to these incidents but 
rather my belief that any high liability type of violation 
warrants strict disciplinary action. In reference to the 
mishandled weapons cases that have been publicized, it should 
be pointed out that employees are trained on the safe handling 
of firearms. Currently, basic training includes several weeks 
of weapons training, discussions on safe handling of weapons, 
and instructions on what to do in situations in which an 
employee uses the restroom.
    That said, I have directed the implementation of new 
elements to our weapons safety training to reinforce the proper 
handling of weapons. This training will also be delivered 
biannually in person during weapons re-qualification as well as 
annually online.
    All of the Department's operational activities and the 
management initiatives involve our most precious resource, 
which is our people.
    No one cares more about our people than I do. My goal has 
been and continues to be to create a work environment to 
provide the tools and training that our workforce needs to be 
successful in a well-managed and efficient manner. Our 
relationships with our labor unions are a key part of that 
goal. During my tenure, we successfully negotiated and ratified 
a new contract with the Teamsters, which is the labor union 
representing our covered civilian workforce. Additionally, I 
meet regularly with members of the Fraternal Order of Police 
Executive Board on issues of importance to our sworn workforce. 
We have also initiated negotiations with the FOP on a new 
contract, which will provide a labor management framework for 
our covered sworn workforce. These negotiations are ongoing.
    I would now like to briefly lay out for you my focus as we 
go forward. Before I do, I must acknowledge that I realize that 
I have not fully developed a relationship with you and others 
in leadership that I have needed to, in order to be a 
completely effective leader. I came into the Department facing 
many imminent operational activities and did not appropriately 
return my focus to establishing myself as the Chief of Police 
with the congressional community. I would like you to know that 
I am committed to making the necessary effort to meet your 
expectations and to provide better communication with all of 
our oversight committees and congressional leadership.
    As you know, on May 1, 2015, I appointed Matthew Verderosa 
as the Chief of Operations and Assistant Chief of Police after 
a 30-year career in federal law enforcement. He has served in 
many operational and administrative roles in the Department, 
which I believe make him uniquely qualified to help me and my 
Chief Administrative Officer, Mr. Richard Braddock, lead the 
Department.
    In an effort to provide greater focus to our efforts, I 
have laid out a plan for achieving many necessary management 
activities over the next several months. I will be focused on 
developing the necessary relationships with the Department's 
stakeholders to be the most effective Chief that I can be.
    I plan to enhance communications with our workforce and 
ensure the most efficient utilization of overtime. I plan to 
continue training for onboard sworn personnel for the remainder 
of Fiscal Year 2015. I plan to complete promotions for the 
ranks of Deputy Chief, Inspector, and Captain and continue to 
enhance the promotional process for the ranks of Lieutenant and 
Sergeant, which will be administered in late 2015 or early 
2016.
    I will oversee the deployment of the Department's new 
strategic plan in the coming weeks, which will provide greater 
focus for the USCP's efforts and allow our workforce to more 
clearly understand their role in achieving our mission 
responsibilities. Finally, I plan to continue to work with the 
FOP to address the remaining issues related to contract 
negotiations.
    My long-term focus over the next several years includes a 
plan to focus the Department's energy in several areas which 
tie to our new strategic plan, which includes smart policing; 
deploying more effective law enforcement services through 
collaboration, adaptability, and innovation; and focusing on 
workforce efficiency and effectiveness through improved 
communications.
    To successfully achieve these goals, I am committed to 
taking the leadership actions necessary to build a management 
team who shares my vision and who will actively engage all 
levels of the workforce. Given the huge responsibilities of 
this Department and our entire workforce, I realize that the 
Department's failure is not an option. I will continue to 
evolve my leadership style to ensure our success with meeting 
the mission, the needs of the workforce, and this community.
    Once again, thank you for the opportunity to appear before 
you today. I would be very happy to answer any questions the 
Committee may have at this time.
    [The statement of Chief Dine follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. Thank you very much, Chief. I appreciate 
that.
    I think I will just start off about the unattended 
firearms, which was probably, if anything, one of the bigger 
concerns since I have been here on the Hill. You were just 
outlining what you would normally do in a case like that. I 
think you said 5-days suspension, something like that. I am 
sure that depends on the personnel record of that particular 
individual, if there had been incidents in the past or not, et 
cetera.
    But it is also my understanding that some of these 
incidents happened with members of the force that were on sort 
of special detail with leadership. Do you give that 
consideration, or what do you do in a case like that?
    Chief Dine. Yes, ma'am. First of all, obviously, each and 
every one of those cases is or will be or is in the process of 
being fully investigated. That is step one. Then we have a very 
good disciplinary process, which actually prior to promoting 
Assistant Chief Verderosa, I had asked him to look at 
reengineering our disciplinary process to make sure it was 
effective and efficient and as fast moving as possible.
    So one of the changes, while we had an excellent system, I 
found that it was somewhat fragmented. And for an agency our 
size, of the importance in terms of the disciplinary process, I 
believe that a centralized disciplinary process is necessary. 
So Assistant Chief Verderosa has put together a process which 
essentially centralizes the review process, which I think is 
better for all of the members of the agency and makes for a 
better system.
    That being said, the process includes, as you mentioned, 
looking at the Douglas Factors, which come out of the Douglas 
v. Veterans Administration case, as you may be aware. Our 
collective bargaining agreement ensures that at least four of 
those are considered, which include the member's record, 
whether the act was willful or, you know, on purpose or not, 
and those kinds of things.
    So the member's record is taken into consideration, how 
long they have been on the department, their disciplinary 
record, what kind of act took place, its impact on the agency's 
ability to perform its mission and those kind of things, and 
then punishment is given out. And we have been very diligent in 
both investigating not only these matters but other matters and 
meting out appropriate punishment.
    The Chairman. You know, just reading these media reports, 
obviously, we are all biological human beings, so everyone has 
to go to the bathroom. Some of these incidents happened in a 
bathroom. So I don't know, and maybe this isn't the right 
question, but do you have a lockbox?
    Chief Dine. Yes, ma'am.
    The Chairman. That happens, whether it is in a bathroom or 
wherever they are, that they have to take off their firearm for 
some short period of time and how it is accounted for safely?
    Chief Dine. And that is a great question. We do provide 
lockboxes to our officers. Those are generally kept in their 
homes. There are lockboxes around in various office locations. 
So, if someone has time, they may have the ability to go secure 
their weapon before they go to the bathroom. But as I mentioned 
in my opening testimony, we are now providing additional 
training on what to do when you have to go to the bathroom.
    Obviously, while these acts were not done on purpose, they 
are unacceptable. One cannot leave your weapon anywhere. It has 
to be secured at all times. And so those actually will be dealt 
with firmly and effectively. But we have enhanced the training. 
We have now made that additional training as part of our 
biannual certification process, and we are creating online 
training that everyone will go through once a year as well. So 
we have enhanced and reinforced the whole discussion of weapons 
safety because that is extremely critical, obviously.
    The Chairman. Okay. My second question then would be about 
the gyrocopter incident. Again, you and I have talked about 
this. We have had a brief about it. We have talked about it at 
length. But as I continue to sort of contemplate what could 
have happened, what it meant, et cetera, what it could mean in 
the future, et cetera, I guess I do have a couple of questions.
    In regards to the officers that actually did respond, as I 
said in my opinion, from a layman, I don't know, I don't 
understand your business, but it certainly looked as though the 
Capitol Police that responded did everything they were supposed 
to do flawlessly once the gyrocopter landed. So I am wondering 
how much advance notice that the Capitol Police had, again, 
understanding that the restricted airspace is not your 
responsibility? I am not trying to throw some other agency 
under the bus, but I would like to know, to the extent that you 
can enlighten us, how much advance notice the Capitol Police 
had that this gyrocopter was coming, if boots on the ground 
understood that it was coming, or what exactly happened there 
in the critical moments before this gyrocopter did land. Thank 
God it was nobody that really meant us harm, but who knows.
    Chief Dine. Yes, ma'am.
    The Chairman. As you know, Chief, I also serve as the vice 
chair of the Homeland Security Committee. So, from a homeland 
security standpoint, put my other hat on here for a moment, 
what in the world? The after-action reports, perhaps, what you 
did with the men and women that did respond.
    Chief Dine. Yes, ma'am. A lot of great questions right 
there. And let me first say from the outset, let me touch on 
the notification process, so I can tell you once again, we 
fixed that that the next day working with Chief Verderosa. We 
directed that notifications be given out immediately. So we 
apologize for that. That is not acceptable for you to find 
out----
    The Chairman. Actually, that was not my question. I 
appreciate the candidness. I am talking about how much 
notification the Capitol Police had about the gyrocopter 
coming.
    Chief Dine. Yes, ma'am. The notification of the gyrocopter. 
That day, at, I believe, 12:59 hours we received an email from 
someone claiming to be a reporter asking questions; did we have 
any knowledge about a gyrocopter landing? The information did 
not provide a time or date or indicate that landing was 
imminent or anything like that. It was more about, are you 
aware that this might be happening, and does the person have 
permission to do that?
    That email went to our Public Information Officer, 
Lieutenant Kimberly Schneider, who sent it to our 
Investigations Division. About a minute later, we got a call in 
our Command Center apparently from the same individual asking 
generic type questions, does somebody have a permit to land? 
Again, did not give a date or time or indicate that landing was 
imminent.
    That information was also forwarded then to our 
Investigations Division. As those things began to be looked 
into, minutes later, frankly, the gyrocopter landed. Now, while 
on the West Front, about a minute before it landed, one of our 
officers was approached by someone who was apparently a 
reporter, who knew that the gyrocopter was going to be landing. 
And they asked the officer: Are you aware of anybody, any 
airspace issues, anybody landing? I forget the exact language. 
And the officer didn't know anything about it.
    He asked another officer. They went over the air. They made 
some notifications. Essentially, at that time, they observed 
the gyrocopter over the Grant Statue and landing on the West 
Front. So there was about a 20-, 25-minute time lapse from the 
time we got these generic pieces of information. And, as you 
know, we get hundreds and hundreds of calls every day and 
emails about different permits, about different activities. 
So----
    The Chairman. Now I understand.
    The last thing I will say, because I note that everybody 
else wants to ask a question, it is my understanding you did 
get that email about a half an hour before the gyrocopter 
landed, along with the Web site for a live stream that this guy 
was live-streaming his flight. So maybe somebody else wants to 
follow up on that, but it would seem as though somebody would 
tune in.
    Chief Dine. Well, and we attempted to tune in. We had no 
luck immediately. We ultimately did--that investigation 
continued, which allowed us--and I would like to echo your 
praise of the officers' actions on the scene. Immediately, I 
think the officers acted properly, heroically, swiftly, and 
efficiently. And the continued investigation actually allowed 
us to determine what we were dealing with because, as the K-9 
officers swept the gyrocopter and then our EOD folks approached 
to continue to clear it, we were pulling up information about 
the person, who he was, and what kind of potential threat he 
was or was not.
    So that investigative effort kind of aided our whole 
overall effort and fit into our overall response. As you 
mentioned, it is not our role to patrol the airspace. That is a 
DOD NORAD responsibility, but we work very closely with them. 
We are working with the Department of Homeland Security on an 
after-action report from a larger sense. We are also doing an 
internal one as well.
    And, actually, during Police Week last week, I had an 
opportunity to speak with Secretary Johnson about the matter, 
actually twice, which I was pleased to be able to do that.
    The Chairman. Very good. Thank you, Chief.
    The chair recognizes my ranking member.
    Mr. Brady. Thank you, Madam Chair.
    Chief, far be it for me to sit here and make you feel 
uncomfortable or even to question you. But we are friendlies 
here. We are not the enemy here. My dad was in the police 
force. Mr. Nugent has many, many years of experience in law 
enforcement. I have even talked with him every day. We are, you 
know, a committee to oversight you. This is the first time I 
met you.
    Chief Morse was a friend. He wasn't--we weren't an 
oversight committee; he was a friendly toward us. Walk by, 
anytime you walk by the office, pop in. How are you? How are 
you doing? That is good relationships. You know Philadelphia is 
known for cheesesteaks. We have the biggest cheesesteak 
restaurant in the city, the most famous nationwide, and they 
collect patches. And he wanted a patch from Capitol Police. So 
I went to Chief Morse, I said: You know, I would like to get a 
patch. He said: No, I will go down and bring it to them. I want 
to have that great relationship and good PR. And he did that, 
you know.
    And, again, we don't want to be reactive. We want to act if 
there is a problem, there is an issue, your contract. I deal 
with your officers, with your unions all the time. You meet 
with them a lot. Meet with us a lot. Walk by our office and say 
hello. I know you are busy, but we are busy too. We are not 
going to not say hello to you, you know. And that is my issue. 
That is my problem.
    And I know you could be overwhelmed, but I do appreciate 
that, you know. But if you could get a little more closer to 
us, we want to get closer to you. I have been involved in more 
contracts than anybody you know, including two of yours 
previously, you know. I do a lot of that. And, you know, in the 
city of Philadelphia. When there is always a problem, you know, 
I am the one they go to many, many times.
    We are ready to help you. We have had discussions, me and 
the chairman, all the time, you know. And we a little bit 
wonder why haven't we got like more involved. We are not here 
to criticize you. I can't do your job. You could probably do 
mine, but I can't do yours. Or you can learn mine quickly 
enough. It is no rocket science to be a Congressman. It is a 
little tough to be a police officer.
    We want to be helpful to you. And I really wish that you 
would take that into consideration. No request, nothing. Just, 
you know, if you have requested, it certainly would be on your 
part for us because we are supposed to be here to help you. And 
I wish you would take that consideration and get a little more 
friendly with all of us.
    Chief Dine. Yes, sir.
    Mr. Brady. Thank you, Madam Chair.
    Chief Dine. I can guarantee I will do that, and I 
appreciate your comments.
    The Chairman. Chair recognizes Mr. Harper.
    Mr. Harper. Thank you, Madam Chair.
    Chief Dine, you said there were two notifications that went 
into Capitol Police prior to the landing of the gyrocopter. One 
went into the command center and the other went to the Public 
Information Officers. Is that correct?
    Chief Dine. Yes, sir.
    Mr. Harper. So the times of each of those, again, in 
advance of the landing?
    Chief Dine. I believe one was 12:59 and one was actually a 
minute later, where they made contact with us. It wasn't 
really--I don't know that I would classify it as a 
notification. It was more of a question, were we aware of 
anything like this happening. But I think 12:59 and 1:00.
    Mr. Harper. Then the landing was at 1:23, as I understand, 
right?
    Chief Dine. Yes, sir.
    Mr. Harper. So were you notified yourself personally before 
it landed based upon either of those contacts?
    Chief Dine. I don't believe I was notified before it 
landed.
    Mr. Harper. Okay. Were there any weapons in place on behalf 
of the Capitol Police to protect the Capitol that could have 
shot down the gyrocopter?
    Chief Dine. Yes, sir, weapons were in place, without 
getting too deeply into it. We have various weapons deployed 
around the Capitol. So the short answer is yes. As with any use 
of force, then you get into an issue of whether the officer is 
threatened or the lives of anyone else is potentially 
threatened and that whole decisionmaking process that police 
officers engage in every day, not only here at the Capitol but 
across the country.
    But, yes, sir, we have officers with weapons.
    Mr. Harper. And Chief, you know, my concern is that most 
criminals don't telegraph the date and time of a criminal 
activity that they are going to engage in. This gentleman came 
as close to doing that as you can. And I understand he was not 
charged with any criminal offense. Is that correct?
    Chief Dine. No, sir. He was charged with several criminal 
offenses.
    Mr. Harper. Was he? Okay.
    Chief Dine. Yes, sir. Yes, sir.
    Mr. Harper. Great.
    Chief Dine. And I actually discussed with several Members 
on both the House and the Senate side about looking at the 
sanctions of those offenses as well.
    Mr. Harper. And I understand you can't review every social 
media post or tweet or Facebook account that might be out 
there, but on a regular basis, is that being done just to try 
to monitor that to see if anything shows up? I am sure that is 
part of what you are doing.
    Chief Dine. Yes, sir, it is. And I would be remiss, I 
guess, if I didn't also fill in the rest of this picture. This 
particular gentleman actually had been under investigation 
several years before by the U.S. Secret Service who shared 
information with us about him potentially coming either to the 
White House and/or the Capitol. That was investigated by the 
Secret Service. That was investigated by our agency. We shared 
information.
    At that time, he was deemed to not be a threat. But we do 
engage in the activity you mentioned and then determinations 
have to be made. And I think, it was alluded to earlier in the 
beginning of this hearing, we do receive thousands of pieces of 
information and various types of threats. And what we have to 
do is determine the level of threat.
    Mr. Harper. And I understand multiple agencies are 
obviously involved in this process. There is sharing between 
those agencies. And many of these things you don't have any 
advance warning as potential. And while we are reviewing this, 
looking at ways that we could improve the reaction time is our 
concern is what happens the next time if there is a next time. 
We worry about someone else duplicating this, you know, a drone 
threat. Obviously, we have had some concerns of that in the 
area.
    So how we address this is a great concern. We look forward 
to engaging more with you on what we can do, what you are 
doing, how we can assist you. And we are, first of all, very 
appreciative of the job that the men and women do to protect 
the Capitol complex, and we thank you.
    Chief Dine. Thank you very much.
    And, as it relates to drones, if I might add, we have been 
working to take a leadership position in the National Capital 
Region. Several months ago we held a meeting with about 20 
other law enforcement agencies and the U.S. Attorney and the 
Attorney General for the District of Columbia to talk about 
drones, the challenges that they create for state, federal, and 
local police agencies, ways to combat drones, the types of 
charges that may be placed, and it was a very far- and wide-
ranging discussion.
    We are part of a task force that meets twice a month, 
multiple agencies, to talk about UAVs and how to address those 
issues. We are working with a number of agencies in that 
regard, and actually, we are one of the leading agencies. We 
just recently put out training for all of our officers that 
some other agencies are mirroring in terms of drone education, 
frankly.
    Mr. Harper. Thank you.
    And I yield back, Madam Chair.
    The Chairman. Thank the gentleman.
    The chair recognizes Ms. Lofgren.
    Ms. Lofgren. Well, thank you, Madam Chair, and Mr. Brady, 
and Chief.
    I have been here--I am working on my 21st year, and I think 
this is the first time we have ever had the police before us, 
and I think it is long overdue.
    I do thank you for your testimony and certainly the men and 
women of the department who work so hard to protect the Capitol 
and the people who are here. Like some of the other members of 
the committee, I served for a long time in local government and 
a lot of what I know about policing really comes from my 
experience in local government overseeing law enforcement 
agencies.
    And it seems to me that a lot of the trick of being 
successful is communication; clear lines of command; clear 
policies, that officers not only understand the policies but 
the reasons for the policies. And so I am interested in hearing 
some of that from you.
    I remember in terms of communication, I understand the 
Capitol Police are not in charge of the airspace, but that is a 
communication issue. I remember after 9/11, obviously, the 
Capitol was a target. There was disarray, and many weeks later, 
we had an all-hands briefing in the Capitol with bipartisan 
meeting.
    And I can say this now because it has all, you know, been 
changed, but one Member asked the Sergeant at Arms, when did 
the Secret Service call the Capitol Police? When did that call 
come in? And the answer was, we are still waiting for that 
call. I mean, so I think the communication between other 
agencies, there needs to be a protocol for that so that 
everybody knows what they are supposed to do.
    So I am interested, some of that may be something you want 
to do in a private setting. I don't know. But I would like to 
know what those protocols are, whether the other parties are 
aware of the protocols, and whether there is any monitoring of 
those protocols in terms of policies.
    We had the Naval Yard, a tragic situation. But one of the 
things that I thought was of concern was officers who left 
their station for the best reasons in the world, I am sure, to 
help in a very dire situation, but it raised the question in my 
mind, which is whether the clear policy, which is you don't 
leave the Capitol, and why is it? It is not because we are so 
wonderful. It is that if the Congress is destroyed, the United 
States Government is destroyed.
    And if we had terrorists do a diversion, that might be a 
good way to leave the Congress, a legislative branch, 
vulnerable in a way that decapitates the American Government. 
So I think that officers, if they knew what the clear policy 
was, you know, everybody would get that. But I am not sure that 
that policy is in place or whether it has been communicated.
    So I guess, I don't want to overdo my welcome, but I am 
just concerned about the policies, the command structure, the 
communications with other agencies, and I am wondering, Madam 
Chair, if we might have an opportunity in a confidential 
setting to get reports on those subjects.
    And I see that my time is up so I would yield back.
    The Chairman. I thank the gentlelady very much, and I 
certainly look forward to continuing our discussion about 
information that we need to have in a confidential setting, 
certainly.
    The chair recognizes the gentleman from Florida, Mr. 
Nugent, who, as has been mentioned, has spent many, many years 
as a law enforcement agent. We appreciate you being on our 
Committee here today.
    Mr. Nugent. Well, I appreciate your kind words, Mrs. 
Chairman. It is very important to me to hear from the Chief.
    And, Chief, once again, I think Mr. Brady hit it on the 
head. We are not here in an adversarial position, but we 
certainly have a lot of questions. At least I do. You know, I 
read through everything that the Capitol Police provided. I 
have tabbed it. I have looked at it. And I agree with Mr. 
Brady, this is the first time in 2\1/2\ years that I have seen 
you, which is troubling at least to have that kind of open 
dialogue.
    But when we talk about, and the chairman brought it up, 
reference to the guns. That is like rule number one that you, I 
am sure, teach at the academy. You talk about handgun retention 
all the time. You do those things in a way that obviously has 
to impress upon the rank-and-file guys and gals about how 
important it is. And they understand it, trust me. I mean, you 
know this from your time. My time as a patrol officer, we 
understand how important that is.
    But the question I have is, it seems that there is not a 
lot of transparency in disciplinary process within the Capitol 
Police; secondly, when the Members that the protective details 
are there to protect weren't even notified by the supervisor, 
and at one point in time, it took somebody from your command 
staff after they were notified by one of--I won't say victim of 
it, but one of the folks that had knowledge of it--you never 
even notified the protectee, which is troubling to me.
    So, you know, I understand that one has already been--well, 
has been forwarded 6-days suspension, but it is still at the 
bureau level before it is implemented. Is that true?
    Chief Dine. Yes, sir, it is still in the process but close 
to being fully adjudicated.
    Mr. Nugent. Let me ask you a simple question about the 
three folks or at least the two that are on protective detail, 
are they removed from the detail?
    Chief Dine. They haven't been yet, but we will certainly be 
looking at their assignment. In fact, we are looking--in terms 
of policies and procedures, one of the things we are looking at 
is rotation of personnel throughout the agency.
    Mr. Nugent. Well, I understand, but in your policy, I read 
that you do have the ability for disciplinary reasons to remove 
somebody from an assignment because that is pretty gross--that 
is a gross problem if you leave a gun and particularly when a 
child sees it.
    Chief Dine. Absolutely. There is literally no excuse for 
it.
    Mr. Nugent. You know, and I would think from the rest of 
the folks that work protecting all of us that they would expect 
that, you know, that type of violation of the rules would be 
held pretty high and the discipline would be pretty quick. So 
everybody understands because, you know, I mean putting in 
policy, hey, listen don't leave your gun in the bathroom, that 
is like commonsense 101, right, Chief?
    I mean, so to press that point though to all the other 
rank-and-file folks to, hey, listen, this isn't going to be 
accepted, particularly somebody on a protective detail because 
that is quite a responsibility to have that position. And, 
obviously, they did a great job at whatever position they had, 
I would think, to get elevated to that.
    Chief Dine. Right.
    Mr. Nugent. And so the question has been, at least raised 
in the press, is that we only find out about this stuff if it 
is somehow leaked. Are you going to do something different with 
Capitol Police in regards to violations of policy so I think 
this committee at least should be aware of those types of 
problems so we can assist you in doing the things that you need 
to do, whether it is in funding or it is placing, like the 
chairman mentioned, lockboxes, as we used to do when you went 
into court or you went somewhere where there was a prisoner--
and I know you sure have those at the office--that you have 
those in strategic areas within whatever protector it maybe.
    Chief Dine. Yes, sir. And, obviously, we need to do and I 
need to do a better job at briefing you and spending time with 
you so you are fully aware of how the Department operates and 
our practices so you feel confident with those issues and the 
things that do exist, and then, of course, we have to continue 
to take these things seriously and do something about them.
    Mr. Nugent. Were the people that these officers were 
protecting, were they notified? Were the Speaker of the House 
and them or others notified of the violation of policy with the 
weapon unattended?
    Chief Dine. At some point, the chain of command was 
notified in terms of that side; yes, sir. When that happened, 
if that happened, as soon as it should have, I don't know the 
answer to that. But, obviously, people need to know, and 
personnel practices aren't generally, obviously, discussed in 
the media, but I would like for you to hear about these kinds 
of things from me or my representative.
    Mr. Nugent. Well, you are hitting it on the head. That is 
the last place--I can remember being as sheriff. I didn't want 
to read about it in the newspaper when somebody hasn't told me.
    Chief Dine. Exactly.
    Mr. Nugent. One last question on the gun issue, and I don't 
want to beat this to death, but the supervisor that was aware 
of the officer leaving his firearm or her firearm unattended 
didn't notify the chain of command reference to that violation. 
What is happening to that supervisor?
    Chief Dine. That will be addressed as well because, as you 
mentioned, there has to be a notification process for that 
supervisor. That is part of the role of being a supervisor, 
taking action, yes, sir.
    Mr. Nugent. Right. And, once again, and I know that 
investigations take a while, but I would suggest that this is a 
pretty simple investigation as compared to some that we have 
had to investigate over the course of our careers that, you 
know, need an extension. Like you said, you have a 60-day rule 
and you can extend to 120. I get it. I had to do it too. But 
these types of actions need to be pretty swift, I would think, 
just for your rank and file, so they know that, you know, 
people are held accountable.
    Chief Dine. Absolutely. I think that is the whole key to 
good discipline is that it be swift and sure and effective and 
change the behavior of it. That is the whole purpose for it. 
Right.
    Mr. Nugent. Well, that is what discipline is all about. I 
mean, you try to coach and counsel and do all those things, but 
ultimately, they have to know there is a penalty if you do 
that.
    And my last question, if you would indulge me, is really 
about the email that was sent that referenced the gyrocopter, 
the email that you referenced that came in at 12:59 p.m., on 
April 15. And the subject says, ``Question: Is a man flying 
gyrocopter toward U.S. Capitol?'' That is pretty distinct, I 
think.
    And it says: Hi, I am a reporter for the Tampa Bay Times. A 
local man, as a protest, is flying a gyrocopter and is trying 
to land on the lawn of the Capitol. He says he has notified all 
relevant authorities. His name is Doug Hughes.
    And more, they give the address, because my staff went on 
there and was watching it as it occurred, as he live-streamed 
his flight from Gettysburg. And, you know, it goes on to say to 
the Capitol Police, no. Have they okay'd this flight and the 
landing? And please call me. Gave a phone number.
    Here is my concern, is that that is pretty specific, in 
that, A, it took how long before you were notified and those at 
the Capitol and those that possibly--who knows what the intent 
of this guy is. And that is the problem. When the guy climbs 
the fence at the White House, you don't know what his intent 
is. We don't want to wait to find out what their intent is 
because then we are in a mode--our guys and gals do a great job 
of making the arrest, but we would rather not be there.
    And so my question is, when were you notified that there 
was a threat to the Capitol?
    Chief Dine. I was notified, I believe, essentially 
immediately as it happened.
    Mr. Nugent. As what happened?
    Chief Dine. As he landed.
    Mr. Nugent. To me it just seems like it would be all hands 
on deck when you get an email like this and you have the Web 
site to go to, that bells should be ringing, sirens should be 
blaring within your chain of command as to, this is pretty damn 
important, excuse my language, but it is. What I worry about is 
that whoever got this information just said: Well, you know, we 
get this stuff all the time.
    Well, this is fairly specific, would you not agree?
    Chief Dine. Fairly specific, and obviously unique in that 
regard. Obviously didn't say that it was happening, but one 
could reason that----
    Mr. Nugent. If you read it, it is fairly obvious in the 
report, it gives his phone number so you can contact me. It 
wasn't like he was just, leaving something.
    Let me ask you this. The Sergeant at Arms, when was he 
notified of this email?
    Chief Dine. We made notifications to the Sergeants at Arms 
immediately. I don't recall specifically. I can go back and 
check when they were apprised of the email and the phone call, 
because we gave them a time line of what happened. Very quickly 
after the event, I gave them a time line of all the things that 
happened.
    Mr. Nugent. Chief, did he get a copy of this email?
    Chief Dine. Did the Sergeants at Arms get a copy?
    Mr. Nugent. Did the Sergeant at Arms get a copy of it?
    Chief Dine. I know I gave them a time line. I don't know 
that the email itself was attached. But we gave them a synopsis 
report very close to the event.
    Mr. Nugent. We had the Sergeant at Arms in here and asked 
him questions about this, because obviously we are concerned, 
and we don't want to get into any of the classified portion of 
it.
    Chief Dine. Right.
    Mr. Nugent. That I would hope we could do at a later date. 
I sit on Armed Services, so we have a lot of classified 
sessions afterwards.
    The Sergeant At Arms was very, I don't think he was vague 
on purpose, but based upon what you are saying, is he didn't 
relate any of this like it is in this email to us. And so I am 
concerned about that. And that is why, if you didn't notice him 
with this email, I think that is problematic, at least for the 
Sergeant at Arms, and I can't speak for him.
    I yield back. I see I am out of time. Thank you.
    The Chairman. I thank the gentleman.
    We can have a second round of questions. I would like to 
now recognize Mr. Davis.
    Mr. Davis. Thank you, Madam Chairman.
    Before I go into the questions I had, I just want to 
piggyback on something that my colleague Mr. Nugent was talking 
about with this email. We are concerned. That email was very, 
very specific.
    How many, on average, emails like that do you get a day?
    Chief Dine. About gyrocopters?
    Mr. Davis. About threats.
    Chief Dine. Not many gyrocopter emails.
    Mr. Davis. So you don't get specific emails like that?
    Chief Dine. We get a lot of letters, calls, various types 
of threats, or matters of direction, that is what we call them 
if they are not threats. They all fall under the threat 
category, we get probably a couple thousand of those a year----
    Mr. Davis. A year?
    Chief Dine. Of all types, shapes, and sizes.
    Mr. Davis. But, Chief, you don't get a lot of specific ones 
like Doug Hughes is flying a gyrocopter today on the Capitol 
lawn, right?
    Chief Dine. We don't get many about gyrocopters landing on 
the Capitol lawn; no, sir.
    Mr. Davis. All right. Well, that is the first time I have 
seen that email in our packets, and it is specific enough to, I 
think, warrant some issues.
    That went to the public information officer, correct? Is 
that a generic account or did that go to somebody that monitors 
that on a regular basis?
    Chief Dine. No, it went to our lieutenant who is in charge 
of that office, and then, as I mentioned, we got a call.
    Mr. Davis. Did that lieutenant immediately turn that 
information around?
    Chief Dine. She sent it, I think, within 5 or 6 or 7 
minutes to our investigators.
    Mr. Davis. But still you mentioned in your testimony, you 
mentioned here today in the questions that you didn't learn 
about this until it was happening.
    Chief Dine. Yes, sir.
    Mr. Davis. So we did miss a little bit of the time line. 
Has that PIO been notified that you may want to act a little 
more quickly on such specific information?
    Chief Dine. We have discussed the matter; yes, sir.
    Mr. Davis. Is that PIO going to be disciplined?
    Chief Dine. She won't be disciplined, but we have discussed 
the matter.
    Mr. Davis. Okay. And it gets to my main point. Look, we 
understand, I will bet you common sense will prevail and no 
officer will ever leave a firearm in a toilet cover dispenser 
again in the Capitol Complex, we will likely not see many 
gyrocopters try and land on the lawn, because we are reactive. 
Hopefully, you didn't have to put a specific provision in your 
training manual about not leaving firearms in toilet cover 
dispensers.
    But that is a reaction. What is the Capitol Police doing to 
be more proactive? What can we do to simplify the contact 
process so that all of us on Capitol Hill understand what has 
actually happened? What can we do, what can you do as the 
Capitol Police to simplify the notification process when you 
get a specific email like my colleague Mr. Nugent just read to 
the committee? How do we make things more simple so that we 
don't just have you come in to react to a certain situation or 
in this case multiple situations?
    Chief Dine. The notification process was something that 
needed to be fixed and resolved. So I guess never letting a 
good crisis go to waste, the next day Assistant Chief Verderosa 
and I met, and we directed that immediate notifications go out 
to you about incidents up here. There was a fairly antiquated, 
bureaucratic, overly complicated notification process. We have 
bypassed that and directed that notifications go out.
    And I will apologize in advance if you get too many 
notifications now, but I would rather you be notified than not 
be notified and that your complaint is that you got too much 
information than not.
    So we immediately fixed that, literally the next day, in 
terms of that notification process.
    Mr. Davis. So you fixed those certain situations to react 
to the gyrocopter incidents and the leaving firearms in certain 
facilities incidents.
    Are there any other issues that you are looking at overall 
within the Capitol Police to be more proactive, to maybe look 
at simplifying your protocols and your training methods to 
ensure that we don't even have these situations again?
    Chief Dine. Well, I can tell you from 40 years of doing 
this, I hate to say this, there is probably going to be some 
other incident of somebody doing something. But what we have 
done, as I mentioned, we have clarified the training, we have 
added more training to make sure that we are discussing it 
every time officers qualify, which is twice a year, and then we 
have added online training as it relates to gyrocopters and 
UAVs and those kinds of things.
    We have new training we just put online, and I think we are 
one of the few agencies that have done that. And as I 
mentioned, we now have other agencies mirroring that training 
to make them aware of those kinds of things. And that is an 
awareness piece of what to do when you see a UAV or drone or 
those kinds of things, because that is kind of a fairly unique 
episode.
    Mr. Davis. Well, Chief, it looks like my time has expired, 
but let me end by saying this. I hope you understand that all 
of us around this committee, we want to work with you. I am 
brand new to the committee, unlike my colleagues, who mentioned 
earlier that they haven't had a chance to really work with you. 
But we are all here to be an asset to what you are trying to 
do.
    The men and women who protect this Capitol Complex and the 
tourists who come and visit on a regular basis do a great job. 
We want to help you help them and help you succeed in your job. 
So use us to be helpful, use us to help create more proactive 
procedures and policies. And I look forward to working with 
you. Thank you.
    Chief Dine. Yes, sir. Thank you.
    The Chairman. Thank the gentleman.
    The chair now recognizes Mr. Walker.
    Mr. Walker. Thank you, Madam Chairman.
    Chief Dine, I believe this is the third hearing that I have 
been part of on the House Oversight and Homeland Security, 
maybe we have even had a classified hearing or two.
    I do want to zero in on basically two questions today, and 
I want to start with going back to your notes on page 5. It 
says: ``In February 2014, the department fully implemented its 
new digital encrypted radio system without issues or 
communication service interruptions.'' It also says: ``This new 
radio system provides coverage to the Capitol Complex and is 
now available in areas that previously did not receive radio 
communications.'' I am on page 5.
    Now, here is the important part. It says: ``It also has 
allowed for greater interoperability. To date, the Department 
has the ability to conduct the interoperable radio 
communication bridges with more than a dozen other agencies . . 
. This equipment allows both parties to communicate directly on 
each other's radio systems in order to broadcast critical 
information in a timely manner.''
    Now, according to my time line, it looks to be about 23 or 
24 months. Can you tell me was that radio system in play and 
were these agencies interacting as far as when they first found 
out over those 24 minutes?
    Chief Dine. We did interact, I believe, but we did not use 
the radio system for this particular incident. It is 
interoperable. We have interoperability with the D.C. Police, 
U.S. Park Police, Secret Service, FBI SWAT team, and a number 
of other agencies.
    Mr. Walker. Can you tell me what? Did you use telephone? I 
mean, this looks like it is a state of the art, real-time.
    Chief Dine. It was. And as I think we have discussed in 
some other hearings, if I recall correctly, an officer from 
Park Police saw the gyrocopter, and I believe a Secret Service 
officer may have. They made their notifications. They also made 
notifications to the people that oversee the NCRCC.
    Mr. Walker. Right.
    Chief Dine. We actually were not notified until we saw it.
    Mr. Walker. Well, as my colleague Mr. Davis was just 
talking about, if we have this kind of technology, I don't 
understand why there is not kind of an all-points bulletin 
going on throughout all these agencies. I am assuming these are 
two-way radios.
    Chief Dine. Yes, sir.
    Mr. Walker. All right. Let me move to my next question 
here. You also talked about in--and I guess you have been here 
about 2\1/2\ years, and from what I have read and heard you are 
doing a fine job--there is a communication concern. And you 
said your goal was to provide, I believe, quote, ``better 
communication.''
    I admire and I appreciate that goal, but can you give me 
some of the action steps that you might say this is how we can 
implement better communication from our department to yours? 
And after you finish that response, I will yield back to the 
chairwoman. Thank you.
    Chief Dine. Yes, sir. Well, first of all, as I mentioned, 
we are going to do a better job communicating with you with 
notifications, and I am personally going to do a better job 
meeting with and communicating with you, and I look forward to 
that.
    Internally, though, it is really important that we 
communicate with our whole Department. And I was talking to a 
young officer a month or so ago one night, in the evening--I am 
around kind of all hours of the day and night--and the officer 
said something that was pretty brilliant, because things go out 
in the media and there is discussion. And he said to me, he 
said: Well, Chief, sometimes all we know is what we read, 
because we don't hear what the whole other side is or what the 
Department's side is.
    And sometimes you learn the best things from the officers 
on the ground, and I have never forgotten that, having been a 
police officer for now, in a couple weeks, it will be 40 years.
    So we need to get our message out to our people when there 
is a story to tell them about what happened and what happened 
right and what happened wrong and what the actually story is. 
So we are going to be putting out more messages in that regard 
and have more interactions with our people at all levels.
    Mr. Walker. Thank you, Chief.
    Madam Speaker, yield back.
    The Chairman. I thank the gentleman.
    Chief, I have a couple other questions, I think, as well, 
before we conclude here. One is, going back to my Homeland 
Security, and Mr. Walker and I both sit on that committee also, 
but when you go to the southern border, you are looking at real 
stats there, the eye in the sky, it is very sophisticated 
technology, and they are utilizing it. In many cases it is 
already surplus stuff from the Department of Defense, equipment 
that has been extremely effective in theater, whether you are 
trying to secure a border between Afghanistan and Pakistan or 
the Rio Grande or what have you. It is the eye in the sky.
    So just the ability to be looking at something I think we 
can say this publicly--when you were looking at this 
gyrocopter, it is difficult sometimes for radar to pick up 
various kinds of things, right? I mean, technology is exploding 
every day, whether it is UAVs, whether it is drones. I mean, 
they are going to be using drones to deliver your taco here 
pretty soon, this is what is coming.
    So how can you be able to assess using technology that is 
as available as quickly as you can? This kind of equipment is 
very expensive as well, although, again, the expense of it is 
something you have to take into consideration. But you need to 
ask us, because we are the ones that have to get the money, 
make the priorities of what we are doing and what we are 
expending money on to keep the Capitol and the campus here 
secure.
    Really much of this equipment is already, I think, unless 
the CBP has already got most of the good stuff, but it is 
something that you may want to take a look at. It is incredibly 
effective. I mean, I have been in the stations, in the ground 
stations. It is unbelievable how clearly you can see from high 
distances everything that is going on and the ability then to 
immediately, using communications, to tell, again, the boots on 
the ground, look, this is happening. You don't have to just be 
patrolling back and forth here looking for something. They are 
going to say: This is happening here, now, go there.
    It is unbelievable technology. Again, I am a layman, but it 
seems to me that that may be something you could utilize here.
    Chief Dine. Yes, ma'am. We are looking at that. We actually 
had a briefing this morning. And I would look forward to 
briefing you in a confidential setting about some of the things 
that we are looking at. And you already know what they do for 
you, but there is a lot of technology out there that is being 
worked. We are working that on every level with pretty much 
every agency in the country. We are part of that effort to make 
sure that we are in on what is needed.
    The gap, frankly, where the gap needs to be closed is once 
the vehicle is identified, how then what do you do about it? 
And that is essentially what happened here. Even if we knew it 
was coming, how then do you determine what is the action taken 
once you have identified it?
    But clearly the earlier we know about it and the earlier we 
can identify it the better we can make decisions about 
evacuations, which is a big part of how we use our systems now, 
and whether any use of force either by us or DOD, which really 
plays a main role, is appropriate.
    So you are right, early identification is critical.
    The Chairman. I mean, I don't think I am speaking out of 
turn here. Obviously the bad guys know we have this equipment, 
so it is not like it is some big secret, right? We do utilize 
it.
    The other question I would ask you, because this is 
something that has been talked about quite a bit, I said in my 
opening statement that obviously we all recognize the 
challenges that are being faced by police departments across 
the country because of a number of reasons, various incidents 
that have happened recently.
    What is your thought about body cameras? There has been a 
lot of talk about whether or not that is a good thing, whether 
it is an expenditure of funds that is worthwhile or it is not, 
does it help the police, does it not, does it help all the way 
around to be able to demonstrate exactly what had happened 
there. And I think the Capitol Police don't use them now, and I 
don't know if there has been some thought given to whether or 
not you are interested in pursuing that.
    What is your thought about these body cameras? I know there 
is a lot of talk about them.
    Chief Dine. There is a lot of talk about it, and I would 
like the Committee to know that we stay abreast of that. 
Obviously, as you might expect, I meet with chiefs from around 
the country regularly at conferences and forums. The Police 
Executive Research Forum, who is located right here in 
Washington, D.C., they have taken a leadership role in that. 
They have put out basically, I think, one of the seminal sort 
of reports on the use of body cameras and how those are 
implemented, working with chiefs that have implemented them.
    I think they are a good tool. I would opine that, like any 
piece of technology, they are not a panacea. What is concerning 
a little bit is as we think about the future and some next 
piece of technology, are we going to get to the point where a 
police officer without a body camera, that the police officer's 
testimony is worthless? That is concerning to me, frankly, 
having done this for so long. But do I think it is a 
potentially useful piece of tool? Yes. So we are monitoring 
that very closely to see if it is something that would be 
appropriately utilized here.
    There are still a lot of privacy questions about what 
happens to the information, how it is protected, and those 
kinds of things that, while there are some best practices 
opinions about that, have not been fully determined. That is 
one of the debates going on right here in Washington, D.C., 
what happens to those videos and do they end up on YouTube and 
those kinds of things.
    But we are closely monitoring. I have actually read the 
PERF report, so I am up-to-date on, I think, where things are 
as it relates to that technology.
    The Chairman. Okay. Well, I would just say in regards to 
that, if you come to the conclusion or recommendation that that 
is something you do want to pursue, again, you can make a 
proposal to us. We want to be your advocate if we can and in 
agreement with what you are looking for.
    The last question, and if you don't want to answer this 
question you don't have to, but I mentioned in my opening 
statement, I personally have some question, consternation about 
the current wiring diagram for your management structure, I 
don't care whether it is you or who the next person is going to 
be, just because of the way that the Capitol Police Board, the 
construct of it. As I say, it has been in existence for a very 
long time, and I think it probably has worked well.
    On the other hand, the largest room is always the room for 
improvement, and it is 2015. Perhaps it is time for us to think 
about whether or not having the Sergeant at Arms in the Senate 
and the Sergeant at Arms in the House and then the Architect of 
the Capitol deciding who is going--I mean, hiring, firing, 
disciplining, whatever. You have three bosses. I have about 
750,000 bosses, but you have 3. I mean, that has got to be a 
very difficult thing, and I am just not sure it serves us as 
well as it could.
    So I am not sure if I am really asking you, since those are 
your bosses, what you think about that structure, but I 
certainly throw it out to the Committee members as well to 
digest it all a bit. And I think we may want to think about if 
that is adequate or whether or not we could improve that. If 
you would like to comment, you can. If you don't want to, you 
don't have to.
    Chief Dine. Well, I will just say that I think that the 
Board wears several hats, and I work with them in both of those 
arenas. They wear their hats in their individual role as the 
Sergeant at Arms for the House or the Senate or the Architect, 
and we work with them and their staffs individually each and 
every day in terms of all the issues that we deal with 
individually for their entity.
    And while I am at it, we also work very closely with you 
and your staffs. And we appreciate the oversight that you and 
your staffs and all the committees have provided to us, and I 
have relied heavily on the outstanding people I have that have 
done that. But that is no excuse for me not personally meeting 
with you, which I look forward to doing.
    So we have a lot of interaction with the staffs, and often 
they act as buffers for the police, but then they wear their 
Police Board hat where ostensibly they are coming together as a 
cohesive entity to give guidance and direction and oversight. 
So we work with them, I guess, on several levels, and I will 
leave it at that.
    The Chairman. All right. Very well.
    Any other questions? Mr. Ranking Member.
    Mr. Brady. Yeah. Just quickly, Madam Chairman. Thank you 
for having this hearing, because I got an opportunity to meet 
the Chief of Police of Capitol Hill.
    I do need to get to know you better, for a lot of reasons, 
because I work here and I am worried about the people that 
visit here. But also you are coming to my city in 2016, coming 
to Philadelphia, we have our convention there, and I would like 
to get to know you better. There are a lot of logistics that 
are there, field office, kind of a unique place. Everybody is 
in charge and everybody is smarter than everybody else. So I 
would just like to fill you in on all that and make sure that 
you don't step on any land mines while you are there.
    So I do need to get a little bit to know you better. You 
need to get to know me and our committee better.
    Madam Chair, thank you for having this hearing, and I yield 
back the balance of my time.
    The Chairman. I thank you very much. I am certain you are 
going to have the Chief bringing a patch to that cheesesteak 
place.
    Mr. Brady. I failed to state, and this person is also the 
biggest around and he is also a major law enforcement 
supporter, and he closes down his shop three or four times a 
year for 2 or 3 days. I mean, he doesn't close it down, he 
keeps it open. But all the proceeds go to the police officers. 
I am talking about probably up to maybe a couple millions 
dollars. So it was worth it.
    And I was proud to bring my chief of police down there, and 
he wanted to put the patch on the wall, and he put it right in 
the middle of all the many, many other patches. So you come 
down, and I will fatten you up with a cheesesteak.
    The Chairman. Very good.
    Chief Dine. I appreciate that.
    The Chairman. The gentleman from Florida.
    Mr. Nugent. I just have a comment about Philadelphia just 
in passing. Been there for a lot of Army-Navy games, and you 
are right, there is a great place, there are a couple places 
that actually have a pretty good cheesesteak, but I know the 
one you are talking about.
    And, Chief, I would just say that in reading your response 
and all that, I think if you follow through with those things 
it will be a good thing. But you hit on something earlier that 
is near and dear to my heart where you were talking to one of 
the guys on the street. I found, and I am sure you did too, 
management by walking around, it is nothing against your 
command staff, but I used to have my command staff come in and 
say: Boss, how do you know that?
    And it is amazing the things that you will hear from those 
folks that actually do the job. Command staff is great, but 
they have their reasons to do whatever, to insulate you or 
whatever, and I think it is real important that if you are not 
having townhall meetings with your folks, you ought to. It is a 
great opportunity.
    I had the FOP as the union for my sworn patrol officers and 
below sergeant. They were actually my best ally in dealing with 
budget issues as it relates to benefits and salaries. So I 
would just say that that is something you can really, really 
encourage.
    And so with that, I yield back. I thank you.
    The Chairman. Thank you. Thank the gentleman.
    Ms. Lofgren.
    Ms. Lofgren. I think this has been helpful, and I am 
hopeful that we can have a followup meeting soon for some of 
the other issues that we either need to discuss confidentially 
or would like to raise in a less public setting because of 
security reasons.
    But I would like to at that time to discuss with the Chief 
efforts to provide security outside of the Capitol in our 
district offices and also how we are using security to sort 
through the incoming. I mean, if you get a thousand emails a 
day, there is a way to mine that using technology to sort 
through what is likely to be a problem and what isn't. And I 
don't know if that is being done at this point, but it is 
something I would like to explore further.
    With that, thank you. I will yield back.
    The Chairman. I thank the gentlelady.
    I thank all the Committee members.
    Mr. Nugent. I second it.
    The Chairman. Pardon me?
    Mr. Nugent. I second it.
    The Chairman. You second it. Very good.
    I thank everybody, all the Committee members.
    Obviously, Chief, we had excellent attendance here today 
with a very engaged group of members who have a lot of 
questions and concerns, and I think everybody asked them very 
well. And your testimony was very good and your answers as 
well, although I think some of us are still scratching our head 
a little bit about some of these things.
    I will say that if there is one takeaway from this hearing 
that I think you can see very clearly, the Members of Congress 
just have the utmost respect for the United States Capitol 
Police, and you are here representing your force of almost 
2,000 folks here, and some of your staff and your folks are 
here today.
    We tell you that in all sincerity. We thank you each and 
every day. And there are so many incidents, as I mentioned in 
my opening statement, that we never hear about. We never hear 
about these things, they just are handled, they are handled.
    So we are just very, very appreciative of your willingness. 
Everybody comes to work willingly each and every day to protect 
this campus, and as I say, most importantly, all the Americans 
that are here. We do as a Committee stand ready to continue to 
work shoulder to shoulder with you and your entire force on our 
common goal of just keeping ourselves secure and keeping this 
campus secure and protecting democracy and freedom and liberty, 
all of those things. So we thank you very much.
    Without objection, I will also mention that all members 
will have 5 legislative days to submit to the chair any 
additional written questions for the witness, which we will 
forward and ask him to respond as promptly as he could so that 
that answer could be made part of the record as well.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Without objection, the hearing is adjourned. 
Thank you.
    [Whereupon, at 3:36 p.m., the Committee was adjourned.]

                                  [all]
</pre></body></html>
